     Department of Homeland Security

     ��������������������������


 Science and Technology Directorate's Management 

 Letter for FY 2013 DHS Financial Statements Audit





OIG-14-83                                  April 2014

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


   
                                      APR 28 2014 
 
MEMORANDUM FOR:	              Richard Williams 
                              Director of Finance and Budget 
                              Science and Technology Directorate 
 
FROM:	                        Anne L. Richards 
                              Assistant Inspector General for Audits 
 
SUBJECT:	                      Science and Technology Directorate’s Management Letter 
                               for FY 2013 DHS Financial Statements Audit 
                                
Attached for your information is our final report, Science and Technology Directorate’s 
Management Letter for FY 2013 DHS Financial Statements Audit. This report contains 
two comments and two recommendations related to internal control deficiencies that 
were not required to be reported in the Independent Auditors’ Report on DHS’ FY 2013 
Financial Statements and Internal Control over Financial Reporting. Internal control 
deficiencies which are considered significant deficiencies were reported, as required, in 
the Independent Auditors’ Report, dated December 11, 2013, which was included in the 
Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency Financial Report. 
We do not require management’s response to the recommendations.   
 
We contracted with the independent public accounting firm KPMG LLP (KPMG) to 
conduct the audit of the DHS’ FY 2013 financial statements and internal control over 
financial reporting. The contract required that KPMG perform its audit according to 
generally accepted government auditing standards and guidance from the Office of 
Management and Budget and the Government Accountability Office. KPMG is 
responsible for the attached management letter dated January 15, 2014, and the 
conclusions expressed in it.  
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100. 
 
Attachment 
                                
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, Science and Technology Directorate
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute
of Certified Public Accountants.
The Science and Technology Directorate (S&T) is a component of DHS. During our audit, we noted
certain matters involving internal control and other operational matters, related to S&T, that are
presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or
result in other operating efficiencies. These matters are summarized in the Table of Financial
Management Comments on the following pages. The disposition of each internal control deficiency
identified during our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein
– is presented in Appendix A.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of S&T’s organization gained during our work to make comments and suggestions that we hope will
be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                Science and Technology Directorate
                             Table of Financial Management Comments

                                         September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)



Comment
Reference   Subject                                                                      Page

FMC 13-01   Untimely Recording of Obligation Activity to the General Ledger               2
FMC 13-02   Undelivered Orders                                                            2

                                            APPENDIX

Appendix    Subject                                                                      Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and    3
            Recommendation (NFRs)




                                                    1

                                  Science and Technology Directorate
                                   Financial Management Comments

                                          September 30, 2013




FMC 13-01 – Untimely Recording of Obligation Activity to the General Ledger (NFR No. Science
and Technology Directorate (S&T) 13-01)

       Controls were not fully effective to ensure obligation activity was recorded timely to the general
       ledger upon execution of obligations. Specifically, we noted nine instances in which the
       transaction was posted to the general ledger in a subsequent quarter, and ten instances in which
       the transaction was recorded more than two weeks after the contract execution date.

       Recommendation:
       We recommend that the S&T reinforce existing policies to ensure timely recording of obligation
       activity.


FMC 13-02 – Undelivered Orders (NFR No. S&T 13-02)

       Controls were not operating effectively to ensure undelivered orders (UDO) activity was
       supported by appropriate and readily available documentation to verify that UDO activity was
       valid. Specifically, we noted one instance in which documentation to support UDO activity was
       not readily available for inspection.

       Recommendation:
       We recommend that S&T ensure policies and procedures are followed to ensure that UDO
       supporting documentation is properly maintained, and readily available, to support valid
       obligations.




                                                    2

                                                                                                              Appendix A
                                     Science and Technology Directorate
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
              NFR
Component                Description                                                    MW         SD        NC       No.
              No.
                         Untimely Recording of Obligation Activity to the General
S&T           13-01                                                                                                  13-01
                         Ledger
S&T           13-02      Undelivered Orders                                                                          13-02


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated December 11, 2013
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                             3

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Science and Technology Directorate

   Under Secretary
   Director of Finance and Budget
   Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-83
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
